1

n•

UNITED STATES SUPREME COURT

PATRICK CRICK,
Petitioner
v.
STATE OF WASHINGTON,
Respondent

On Petition for Writ of Certiorari
to the Washington Western District Court

MOTION FOR LEAVE TO PROCEED AS A VETERAN

PATRICK CRICK
Petitioner, Pro Se
734 Berne LN. SE
Olympia, WA. 98513
(360) 789-6323

received
JUN 21 2019

Patrick Crick asks leave to file the attached
petition for a writ of certiorari on 8J by 11-Inch Paper
Format, and to proceed as a veteran.
Mr. Crick has previously been granted leave to proceed
in forma pauperis in the Washington Court of Appeals, but
has paid all filing fees elsewhere.

1

Mr. Crick’s affidavit or declaration in support of
this motion, together with his DD-214 "discharge"
documents, are attached hereto.
Respectfully submitted this 2* *>

day of June, 2009-

Patrick Crick
Petitioner, Pro Se
734 Berne LN. SE
Olympia, WA. 98513
(360) 789-6323

1

Mr. Crick was initially represented by appointed counsel
Corey Endo on federal habeas petition. However, preceeding this
appointment, Mr. Crick has exhausted his entire estate pursuing
counsel and paying filing fees.

SUPREME COURT OF THE UNITED STATES
PATRICK CRICK,
Petitioner,

)
)

) DECLARATION IN SUPPORT
v.

)

) OF MOTION TO PROCEED
STATE OF WASHINGTON,
Respondent.

)

) AS A VETERAN

Petitioner, Patrick Crick swears or affirms under penalty
of perjury that the following is true:
1.

I am over the age of 18, and competent to testify
as a witness. I am the petitioner to this matter.

2.

I honorably served the country in the United States
Army, and was medically discharged in December of
1995. My service number is 406825338.

3.

At separation, I held the rank of E4, and served
at Ft. Campbell, Kentucky. I was assigned to the
101st Airborne, 311th Military Intelligence
battalion. A copy of my DD-214 affirms these facts.

I swear or affirm under penalty of perjury under United
States laws that the foregoing is true and correct.
Signed by my hand this

^ day of June, 2019.

Patrick Crick
Petitioner, Pro Se

Case: 18-35972, 03/29/2019, ID: 11246885, DktEntry: 3, Page 1 of 1

FILED

UNITED STATES COURT OF APPEALS

MAR 29 2019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

PATRICK S. CRICK,
Petitioner-Appellant,
v.

No.

18-35972

D.C. No. 2:17-cv-Q1348-JLR
Western District of Washington,
Seattle
ORDER

JAMES KEY,
Respondent-Appellee.
Before:

SILVERMAN and CALLAHAN, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because the underlying 28 U.S.C. § 2254 petition fails to state any federal
constitutional claims debatable among jurists of reason. See 28 U.S.C.
§ 2253(c)(2)-(3); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (“When ... the
district court denies relief on procedural grounds, the petitioner seeking a COA
must show both ‘that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its procedural
ruling.’”) (quoting Slack v. McDaniel, 529 U.S. 473,484 (2000)).
Any pending motions are denied as moot.
DENIED.

Additional material
from this filing is
available in the
Clerk's Office.

